r

Certificate of Compliance
No.
In The

Supreme Court of the United States
Frances K. Konieczko,
Lawrence W. Konieczko,
Laurie F. Konieczko,
Petitioners;
v.
Adventist Health System/Sunbelt, Inc.,
sponsored by the Seventh-day Adventist Church,
d/b/a AdventHealth Altamonte Springs, formerly Florida Hospital Altamonte,
and d/b/a AdventHealth Orlando, formerly Florida Hospital Orlando,
Respondents.

As required by Supreme Court Rule 33.1(h), I hereby certify that the Petition
for a Writ of Certiorari contains 5076 words, according to the Microsoft
Word Count feature utilized, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Date: May 22, 2019
Frances K. Konieczko, PlaintiflTPetitioner
PO Box 536253, Orlando, FL 32853

Date: May 22, 2019

OxxAJ^yiCJ^

04/

Lawrence W. Konieczko, PlaintifF/Peritioner
PO Box 536253, Orlando, FL 32853
Date: May 22, 2019
Laurie F. Konieczko, Plaintiff/Petitioner
PO Box 536253, Orlando, FL 32853

